No. 20-5570
In the

Supreme Court of the United States

RICHARD BERNARD MOORE,
Petitioner,
v.
BRYAN P. STIRLING, DIRECTOR, SOUTH CAROLINA
DEPARTMENT OF CORRECTIONS, et al.,
Respondents.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Fourth Circuit

BRIEF OF FEDERAL COURTS AND
HABEAS PROFESSORS AS AMICI CURIAE
IN SUPPORT OF PETITIONER
Caitlin J. Halligan
Counsel of Record
Ryan W. A llison
Jordan L. Weatherwax
Selendy & Gay PLLC
1290 Avenue of the Americas
New York, New York 10104
(212) 390-9000
challigan@selendygay.com
Counsel for Amici Curiae
298530

A
(800) 274-3321 • (800) 359-6859

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . .  iii
INTEREST OF AMICI CURIAE . . . . . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT  . . . . . . . . . . . . . . . . . . . . 1
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
I.

THE FOURTH CIRCUIT’S “HEART
OF THE CLAIM” TEST CREATED A
DEEPENING SPLIT IN THE COURTS
OF APPEALS  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
A. Before Martinez, Every Court Agreed
That A Federal Court Claim Had Not
Been Fairly Presented In Or Adjudicated
On The Merits By A State Court If New
Evidence Fundamentally Altered It . . . . . . 5
B. Fol low i ng Mar tin ez, Cou r t s Of
Appeals Have Split On The Test For
Determining Whether A Claim Is New
Or Adjudicated On The Merits . . . . . . . . . . . 9

II. THE DEFINITION OF “ADJUDICATED
ON T H E M ERI T S ” DI D NO T
CH A NGE W H EN T H E COU RT
DECIDED MARTINEZ; THE STATES’
INCENTIVES DID  . . . . . . . . . . . . . . . . . . . . . . 12

ii
Table of Contents
Page
III. THE FOURTH CIRCUIT ’ S RULE
I S I RR EC ONCI L A BLE W I T H
T HIS COU RT ’ S PRECEDEN T
A N D U N DE R LY I NG C O M I T Y
PRINCIPLES  . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
APPENDIX  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1a

iii
TABLE OF CITED AUTHORITIES
Page
Cases
Aiken v. Spalding,
841 F.2d 881 (9th Cir. 1988) . . . . . . . . . . . . . . . . . . . . . 8
Aldridge v. Dugger,
925 F.2d 1320 (11th Cir. 1991)  . . . . . . . . . . . . . . . . . . . 8
Anderson v. Harless,
459 U.S. 4 (1982)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 17
Anderson v. Johnson,
338 F.3d 382 (5th Cir. 2003) . . . . . . . . . . . . . . . . . . . . . 7
Boyko v. Parke,
259 F.3d 781 (7th Cir. 2001) . . . . . . . . . . . . . . . . . . . . . 7
Caballero v. Keane,
42 F.3d 738 (2d Cir. 1994) . . . . . . . . . . . . . . . . . . . . . . . 8
Coleman v. Thompson,
501 U.S. 722 (1991)  . . . . . . . . . . . . . . . . . . . . . 2, 3, 6, 12
Cox v. Lockhart,
970 F.2d 448 (8th Cir. 1992) . . . . . . . . . . . . . . . . . . . . . 8
Cullen v. Pinholster,
563 U.S. 170 (2011) . . . . . . . . . . . . . . . . . . . . . . . passim
Dickens v. Ryan,
740 F.3d 1302 (9th Cir. 2014)  . . . . . . . . . . . . . . . .  10, 13

iv
Cited Authorities
Page
Ex parte Royall,
117 U.S. 241 (1886)  . . . . . . . . . . . . . . . . . . . . . . . . . . .  17
Fay v. Noia,
372 U.S. 391 (1963)  . . . . . . . . . . . . . . . . . . . . . . . . . . .  17
Harrington v. Richter,
562 U.S. 86 (2011)  . . . . . . . . . . . . . . . . . . . . . . . . . . 6, 13
Hawkins v. Mullin,
291 F.3d 658 (2002) . . . . . . . . . . . . . . . . . . . . . . . . . . 7, 8
Johnson v. Williams,
568 U.S. 289, 302 (2013) . . . . . . . . . . . . . . . . . . . . . . . 16
Kunkle v. Dretke,
352 F.3d 980 (5th Cir. 2003) . . . . . . . . . . . . . . . . . . . . . 8
Martinez v. Ryan,
566 U.S. 1 (2012)  . . . . . . . . . . . . . . . . . . . . . . . . . passim
Matthews v. Evatt,
105 F.3d 907 (4th Cir. 1997) . . . . . . . . . . . . . . . . . . . . . 8
Moore v. Stirling,
952 F.3d 174 (4th Cir. 2020)  . . . . . . . . . . . . . . . . passim
Morissette v. United States,
342 U.S. 246 (1952) . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

v
Cited Authorities
Page
Nelson v. Davis,
952 F.3d 651 (5th Cir. 2020) . . . . . . . . . . . . . . . . . .  9, 14
Panetti v. Quarterman,
551 U.S. 930 (2007) . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Picard v. Connor,
404 U.S. 270 (1971)  . . . . . . . . . . . . . . . . . . . . . . . passim
Satterlee v. Wolfenbarger,
453 F.3d 362 (6th Cir. 2006) . . . . . . . . . . . . . . . . . . . . . 7
Stevens v. Del. Corr. Ctr.,
295 F.3d 361 (3d Cir. 2002) . . . . . . . . . . . . . . . . . . . . . . 7
Thomas v. Payne,
960 F.3d 465 (8th Cir. 2020) . . . . . . . . . . . . . . . . . . . . 11
Trevino v. Thaler,
569 U.S. 413 (2013)  . . . . . . . . . . . . . . . . . . . . . . . . . 9, 10
Turner v. Fair,
617 F.2d 7 (1st Cir. 1980) . . . . . . . . . . . . . . . . . . . . . . . . 8
Universal Health Servs., Inc. v. United States,
136 S. Ct. 1989 (2016)  . . . . . . . . . . . . . . . . . . . . . . . . . 15
Vasquez v. Hillery,
474 U.S. 254 (1986)  . . . . . . . . . . . . . . . . . . . . . . . passim

vi
Cited Authorities
Page
Wainwright v. Sykes,
433 U.S. 72 (1977) . . . . . . . . . . . . . . . . . . . . . . . . . . 6, 16
Wilwording v. Swenson,
404 U.S. 249 (1971)  . . . . . . . . . . . . . . . . . . . . . . . . . . .  17
Winston v. Kelly,
592 F.3d 535 (4th Cir. 2010) . . . . . . . . . . . . . . . . . . . . . 7
Statutes
28 U.S.C. § 2254 . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
Other Authorities
2 Randy Hertz & James S. Liebman, Federal Habeas
Corpus Prac. & Proc. § 23.3c (5th ed. 2005) . . . . . . . 7
Nex t t o Di e: Wa t chin g Dea th Ro w, T he
Marshall Project, https://bit.ly/2Sk3i2x . . . . . . . . . . . 8
Nex t t o Di e: Wa t chin g Dea th Ro w, T he
Marshall Project, https://bit.ly/33gULE0 . . . . . . . . . 8
S. Carolina Carries Out Execution, Associated
Press (Nov. 8, 1997), https://bit.ly/36siz9M . . . . . . . . 8

1
INTEREST OF AMICI CURIAE1
Amici curiae are professors of law with academic and
practical expertise in post-conviction law generally, and
federal habeas corpus in particular. Amici have published
extensively in these areas, and several signatories have
authored leading habeas corpus books that are regularly
cited by the federal courts and used by practicing lawyers.
Amici respectfully submit this brief to provide information
on the history of the fair presentation doctrine at the heart
of the circuit split in this case. Amici developed this brief
solely as individuals and not as representatives of the law
schools with which they are affiliated.
A full list of amici appears in Appendix A.
SUMMARY OF ARGUMENT
The Antiterrorism and Death Penalty Act of 1996
(“AEDPA”) includes a provision that imposes a relitigation
bar applicable to claims adjudicated on the merits in state
court. 28 U.S.C. § 2254(d). The Court of Appeals for the
Fourth Circuit held that § 2254(d) barred relitigation
of Petitioner Richard Moore’s ineffective-assistance-oftrial-counsel (“IATC”) claim because, it reasoned, the
same claim had been “adjudicated on the merits” in state
court. The Fourth Circuit applied § 2254(d) even though
the IATC claim Moore presented in federal court included
1. The parties were provided proper notice and have
consented to the filing of this amicus brief. No counsel for any
party authored this brief in whole or in part, and no such counsel
or party made a monetary contribution intended to fund the
preparation or submission of this brief. No person other than the
amici curiae, or their counsel, made a monetary contribution to
its preparation or submission.

2
crucial new evidence, and even though the state court
claim was factually unsubstantiated. Articulating a new
test for “fair presentation” and eschewing any comparison
of factual support presented to the state and federal
courts, the Fourth Circuit held that that a federal court
claim is adjudicated on the merits whenever the “heart of
the federal claim” was alleged in state court. The heart-ofthe-claim test, which is unsupported by ordinary tools of
statutory interpretation, is now at the root of a circuit split.
The rules of fair presentation incorporated into
§ 2254(d) are well established. Under federal habeas law,
a claim that was not “fairly presented” to a state court has
not been “adjudicated on the merits” there. See Picard
v. Connor, 404 U.S. 270, 275 (1971). Instead, this Court
has long held that when a claim is not “fairly presented”
it is either unexhausted, if further state remedies remain
available, or procedurally defaulted, if a return to state
court would be futile. Coleman v. Thompson, 501 U.S.
722, 729–30 (1991). The leading case on the doctrine
of fair presentation is Vasquez v. Hillery, 474 U.S. 254
(1986), which held that a federal court claim was not fairly
presented to a state court when evidence “fundamentally
alter[s]” it. See id. at 260–61.
Arguing that “adjudicated on the merits” under
§ 2254(d) requires only identity of legal principles in
state and federal court without regard to the facts, the
State points to Cullen v. Pinholster, 563 U.S. 170 (2011).
According to the State, Pinholster is a free-floating
mandate for lower courts to limit evidence taken in
federal habeas proceedings. But Pinholster interprets
an exception to the relitigation bar, § 2254(d)(1), that
applies only after a federal court determines that a

3
state merits adjudication took place. Pinholster says
nothing at all about how to determine the logically
antecedent question—whether the federal court claim was
adjudicated on the merits by a state court in the first place.
Indeed, the Court in Pinholster explicitly disclaimed any
attempt to address this question by refusing to “draw [a]
line between new claims and claims adjudicated on the
merits,” while acknowledging that the addition of new
evidence in federal court “may well present a new claim.”
Id. at 186 n.10.
Yet relying on Pinholster to support its novel heartof-the-claim test, the Fourth Circuit held that § 2254(d)
barred relitigation of Moore’s IATC claim. Its heart-ofthe-claim standard means that a federal court challenge
is adjudicated on the merits whenever the legal allegations
on which it rests were presented to the state court,
regardless of whether the prisoner also presented facts
and evidence crucial to the claim to the state court.
There is no indication that, when it enacted AEDPA,
Congress intended “adjudicated on the merits” to
mean something other than what it always meant—an
adjudication by a state court of a claim that was fairly
presented to it. And it was settled long before 1996 that,
if the factual “substance” of a claim was omitted from
the state proceeding, it was neither fairly presented
nor adjudicated on the merits there. See Anderson v.
Harless, 459 U.S. 4, 6 (1982) (per curiam). The evidentiary
dimension of the fair presentation rule, like the legal
principles dimension, reflects a profound comity interest
in having habeas petitioners give state courts a fair chance
to superintend the integrity of their own judgments.
Coleman, 501 U.S. at 731.

4
Of course, the text and meaning of § 2254(d) have
remained the same; the only changes are the incentives
for state respondents. There was nothing remotely
controversial about the meaning of “fair presentation”
and “merits adjudication” until Pinholster and Martinez
v. Ryan, 566 U.S. 1 (2012). After Martinez, the absence
of fair presentation no longer served as a categorical
bar to merits review in federal court. See id. at 9. State
respondents thereafter sought to expand the definition
of fair presentation to include claims that were factually
developed in federal court, but presented only through
skeletal, unsubstantiated allegations in state court. If such
claims are reclassified as having been fairly presented,
the states’ thinking goes, then they are adjudicated on the
merits, subject to the relitigation bar, and the Martinez
excuse is irrelevant. The meaning of the § 2254(d),
however, did not change when the Court decided Martinez.
If states want to redefine the scope of the relitigation bar
because Martinez changed their incentives, their recourse
is to seek a revision of § 2254(d) from Congress, not from
a federal court.
ARGUMENT
Applying its “heart of the claim” test, the Fourth
Circuit held that § 2254(d) precluded relitigation of Moore’s
IATC claim because it was adjudicated on the merits and
not new. Moore v. Stirling, 952 F.3d 174, 183–84 (4th Cir.
2020). That test, which treats a claim as fairly presented
without respect to factual substantiation in state court,
is based on an incorrect interpretation of § 2254(d) and
creates a circuit split. When Congress enacted AEDPA,
a federal court claim was not “adjudicated on the merits”
simply because similar allegations were made to a state
court. Fair presentation required factual substance.

5
Nothing has changed since about the statute. That
Martinez changed the incentives for state respondents
is not a sufficient reason for judges to assign a different
meaning to statutory text that remains unchanged.
I.

THE FOURTH CIRCUIT’S “HEART OF THE
CLAIM” TEST CREATED A DEEPENING SPLIT
IN THE COURTS OF APPEALS

Underst a nd i ng the ci rcu it spl it requ i res a n
understanding of the fair presentation doctrine, and
its relationship to the merits adjudication requirement
appearing in § 2254(d). Federal law has long required that,
for a federal court claim to have been fairly presented
to and adjudicated on the merits by a state court, the
claimant must have presented the state court with both
the legal principles and the evidence in support of that
claim. See Picard, 404 U.S. at 276. When a federal court
is presented with new evidence that fundamentally alters
a similar claim that was presented to the state court, a
federal court does not treat that claim as having been
fairly presented or adjudicated on the merits in state
court. See Vasquez, 474 U.S. at 260–61.
A.

Before Martinez, Every Court Agreed That
A Federal Court Claim Had Not Been Fairly
Presented In Or Adjudicated On The Merits By
A State Court If New Evidence Fundamentally
Altered It

Several important federal habeas rules are keyed to a
determination about whether a particular claim presented
to a federal court was fairly presented to and adjudicated
on the merits by a state court. One of the most important
such rules, specified in 28 U.S.C. § 2254(d), generally bars

6
relitigation of claims that were adjudicated on the merits in
state court. Harrington v. Richter, 562 U.S. 86, 98 (2011).
If a claim is adjudicated on the merits, then federal relief
is not permitted unless the state court decision is legally
unreasonable under § 2254(d)(1) or factually unreasonable
under § 2254(d)(2). Id. Both the legal and factual inquiries
entail scrutiny of the state record only. See § 2254(d)(2)
(factual unreasonableness); Pinholster, 563 U.S. at 180–81
(legal unreasonableness). Additional evidence can be used
to prove a constitutional violation only if a claim was not
decided on the merits or after a federal court concludes,
on the state record alone, that a state merits decision was
legally or factually unreasonable.
Federal habeas relief is ordinarily unavailable to a
state prisoner who fails to present fairly a claim because
he has either failed to exhaust it (if a state remedy
remains) or has procedurally defaulted it (if one does
not). See Coleman, 501 U.S. at 729–30 (1991) (procedural
default); Picard, 404 U.S. at 275 (exhaustion). Crucially, a
claim that is not fairly presented cannot be “adjudicated
on the merits” because the state court cannot decide
the substance of factually supported allegations. See
Wainwright v. Sykes, 433 U.S. 72, 87 (1977) (procedurally
defaulted claims are not “resolved on the merits in the
state proceeding due to respondent’s failure to raise them
there as required by state procedure”).
Vasquez, 474 U.S. at 257, reaffirmed the rule that
a federal court claim is not fairly presented when new,
crucial evidence “fundamentally alters” an otherwise
similar claim litigated in state courts, id. at 260. The
evidentiary dimension of the fair-presentation rule serves
an important federalism interest: A claim is presented

7
when the state court has had a fair opportunity to apply
the legal principles to the facts. Picard, 404 U.S. at 277.
The basic planks of the fair-presentation rule were
settled long ago. Before 2012, the courts of appeals
recognized the same rule: When a petitioner presents
a federal court w ith evidence that fundamentally
alters a claim presented to a state court, the federal
cour t claim was neither presented fai rly to nor
adjudicated on the merits by the state court. See, e.g.,
Winston v. Kelly, 592 F.3d 535, 550 (4th Cir. 2010)
(applying Vasquez and holding “if the petitioner
presented no evidence to the state courts … the
claim w ill be fundamentally altered by the new
evidence presented to the district court”); Satterlee
v. Wolfenbarger, 453 F.3d 362, 366 n.2 (6th Cir. 2006)
(citing Vasquez and holding a claim is not fundamentally
altered by “introduction of new factual materials
supportive of those already in the record” (quoting 2
Randy Hertz & James S. Liebman, Federal Habeas
Corpus Prac. & Proc. § 23.3c, at 1088–89 (5th ed. 2005)));
Anderson v. Johnson, 338 F.3d 382, 388 (5th Cir. 2003)
(citing Vasquez and finding that affidavit did not
fundamentally alter claim where it supported an
allegation he asserted in state court); Hawkins v.
Mu l l i n , 2 9 1 F. 3 d 6 5 8 , 6 7 0 (10 t h C i r. 2 0 0 2)
(citing Vasquez and holding that petitioner defaulted on
claim for which he presented no evidence to state court);
Stevens v. Del. Corr. Ctr., 295 F.3d 361, 370 (3d Cir. 2002)
(citing Vasquez and holding new affidavits presented to
federal court did not fundamentally alter claim because they
presented same facts as evidence petitioner presented to
state court); Boyko v. Parke, 259 F.3d 781, 789 (7th Cir. 2001)
(citing Vasquez and holding that petitioner’s claim
was not fundamentally altered by new evidence);

8
Caballero v. Keane, 42 F.3d 738, 741 (2d Cir. 1994)
(citing Vasquez and remanding with instruction to dismiss
because petitioner failed to exhaust state remedies as to
claim fundamentally altered by evidence of trial attorney’s
drug use); Cox v. Lockhart, 970 F.2d 448, 454 (8th Cir. 1992)
(claim not fairly presented where no evidence presented
to state cour t to suppor t one element of claim);
Aldridge v. Dugger, 925 F.2d 1320, 1330 (11th Cir. 1991)
(citing Vasquez and holding that new evidence did
not fundamentally alter petitioner’s claim); Aiken
v. Spa l din g, 8 41 F. 2 d 8 81, 8 8 3 (9 t h Ci r. 19 8 8)
(citing Vasquez and dismissing petition based on evidence
that was never presented to state court); Turner v. Fair,
617 F.2d 7, 11 (1st Cir. 1980) (no fair presentation when
theory undergoes “material alteration”). 2
2. Indeed, since Vasquez, procedural default resulting
from the fundamental alteration of a claim has resulted in
multiple capital defendants being executed without ever having
had the claims they presented in federal court adjudicated on
the merits. See, e.g., Kunkle v. Dretke, 352 F.3d 980, 988 (5th
Cir. 2003) (claim presented by capital defendant on federal
habeas was procedurally defaulted because it was altered
by substantial mitigating evidence); Next to Die: Watching
Death Row, The Marshall Project, https:// bit.ly/2Sk3i 2x
(last visited Sept. 30, 2020) (Kunkle executed on January 25, 2005);
Hawkins, 291 F.3d at 670 (capital prisoner’s claim procedurally
defaulted when he attempted to “present evidence in a federal
habeas proceeding that place[d] the claim[] in a significantly
different legal posture” (internal quotation marks omitted)); Next
to Die: Watching Death Row, The Marshall Project, https://bit.
ly/33gULE0 (last visited Sept. 30, 2020) (Hawkins executed on
April 8, 2003); Matthews v. Evatt, 105 F.3d 907, 914-15 (4th Cir. 1997)
(capital prisoner’s claim procedurally defaulted because he failed to
present factual support to the state court); S. Carolina Carries Out
Execution, Associated Press (Nov. 8, 1997), https://bit.ly/36siz9M
(Matthews executed in November 1997).

9
B. Following Martinez, Courts Of Appeals Have
Split On The Test For Determining Whether A
Claim Is New Or Adjudicated On The Merits
In 2012 and 2013, this Court decided Martinez, and
Trevino v. Thaler, 569 U.S. 413 (2013), which together
hold that deficient state post-conviction representation
can excuse the procedural default of an IATC claim.
Martinez recognized that when state procedural rules
require petitioners to raise IATC claims first on collateral
review, “[i]nadequate assistance of counsel at initial
review collateral proceedings may establish cause for
a prisoner’s procedural default of a [substantial] claim
of ineffective assistance at trial.” 566 U.S. at 9. Trevino
extended Martinez relief to circumstances where a
“state procedural framework, by reason of its design and
operation, makes it highly unlikely in a typical case that
a defendant will have a meaningful opportunity to raise
a claim of ineffective assistance of trial counsel on direct
appeal.” 569 U.S. at 429.
After Martinez and Trevino, the courts of appeals
abandoned their prior uniformity and began to split on
how they analyze whether a claim is new or “adjudicated
on the merits.” The Fifth and Ninth Circuits continue
to apply the longstanding rule—that is, they require
federal courts to consider whether both the facts and
the legal principles presented to the federal court are
the same as those presented to the state court. The test
in those circuits for whether a claim was adjudicated on
the merits includes an analysis of whether new evidence
either fundamentally alters the claim presented to the
state court or places the claim in a significantly different
and stronger evidentiary posture than it was in when
presented to the state court. Nelson v. Davis, 952 F.3d

10
651, 671 (5th Cir. 2020); Dickens v. Ryan, 740 F.3d 1302,
1317 (9th Cir. 2014).
The Ninth Circuit was the first to confront arguments
from state respondents that the meaning of “fair
presentation” and “adjudicated on the merits” had
changed after Martinez and Trevino. In Dickens, that
court reaffirmed the longstanding rule that new evidence
presented in federal court could “fundamentally alter” a
state court IATC claim with similar allegations, and that
such a claim was not adjudicated on the merits within the
meaning of § 2254(d). See 740 F.3d at 1319. And in Nelson,
the Fifth Circuit did the same. See 952 F.3d at 671–72
(recognizing that new evidence could “fundamentally
alter[]” a claim, “render[ing] it a new claim that was not
adjudicated on the merits by the state court”).
The Fourth and the Eighth Circuits, by contrast, have
changed course, eschewing any inquiry into the effect of
new facts adduced in federal court. In these jurisdictions,
the presence of similar legal allegations suffices to show
that a federal court claim was adjudicated on the merits
in state court. In this case, the Fourth Circuit adopted a
novel “heart of the claim” test, centering the inquiry on
the relationship between pleadings and abandoning the
longstanding emphasis on the material factual differences
that were so central to Vasquez. The Fourth Circuit held
that Moore’s claim was adjudicated on the merits and not
new, even though the state court record contained none of
the new, crucial evidence presented to the federal court.
Moore, 952 F.3d at 182–83. Because the “heart” (i.e., the
supporting legal principles) of Moore’s IATC claim was
raised in both state and federal habeas, the Fourth Circuit
reasoned, the claim in federal court was adjudicated on

11
the merits and § 2254(d) barred consideration of any new
evidence. See id.
Just months after the Fourth Circuit decided Moore,
the Eighth Circuit took the same approach to fair
presentation, and positioned itself to incorporate that test
into § 2254(d) analyses. See Thomas v. Payne, 960 F.3d
465, 473 (8th Cir. 2020). That court determined that a
claim was fairly presented and not fundamentally altered
by new evidence presented in federal habeas, reasoning
that “[t]he weakness of support for the claims in the [postconviction] petition and hearing has no bearing on whether
the claims were actually presented.” Id. (emphasis
added). Although the Eighth Circuit declined to analyze
application of § 2254(d), it noted that “[i]t appear[ed]
§ 2254(d) would, in fact, apply” based on its finding that
the claim was fairly presented. See id. at 472 n.5. The
Eighth Circuit is well-positioned to solidify its alignment
with the Fourth Circuit, needing only to confirm that its
new fair presentation test applies to § 2254(d).
***
In short, there was no confusion of the meaning of
“fair presentation” and “adjudicated on the merits” before
Martinez. In every federal jurisdiction, federal courts
observed the rule set forth in Picard and Vasquez: A
federal court claim was not adjudicated on the merits in
state court when it is not fairly presented there, and a
federal court claim is not fairly presented if the comparable
state court claim omitted substantial evidence. The Fifth
and Ninth Circuits held that Martinez changed nothing
about the meaning of fair presentation, but the Fourth
Circuit now disagrees. In the Fourth Circuit, a federal

12
court claim is adjudicated on the merits in federal court
if it shares legal allegations with a claim in state court,
regardless of evidentiary support.
II. THE DEFINITION OF “ADJUDICATED ON
THE MERITS” DID NOT CHANGE WHEN THE
COURT DECIDED MARTINEZ; THE STATES’
INCENTIVES DID
The rule adopted in Moore is the culmination of a
post-Martinez effort by state respondents to revise, for
the purposes of § 2254(d), the meaning of “adjudication
on the merits.” But Martinez changed only the judgemade consequences for a claim that has been classified
as not having been “adjudicated on the merits”—that is,
for procedurally defaulted claims. Martinez did nothing,
and could do nothing, to alter the meaning of “adjudicated
on the merits” in the statute. If states want to change the
meaning of that term in § 2254(d), the appropriate appeal
is to Congress, not the courts.
Before Martinez, federal relief was functionally
unavailable for claims not fairly presented to state
courts. If no federal remedy remained, such claims were
procedurally defaulted, and a federal court could not grant
relief unless the claimant could satisfy a narrow excuse
doctrine. See Coleman, 501 U.S. at 750 (explaining that
excuse had been narrowed so as to require a showing
of cause and prejudice or, in the absence of cause, a
miscarriage of justice). Thus, when a petitioner presented
to the federal court new evidence that fundamentally
altered the substance of a state court claim, that claim
could not be considered unless the petitioner could satisfy
a very narrow exception. Martinez expanded the excuse
for procedural default such that failure to fairly present

13
an IATC claim could be excused by deficient state postconviction lawyering. See 566 U.S. at 9. More precisely, if
an IATC claim is not fairly presented and therefore subject
to procedural default, and if the default is attributable to
inadequate state post-conviction counsel, then the IATC
claimant may still obtain federal habeas review on the
merits. See id. This change reduced the desirability, for
state respondents, of a finding that a claim had not been
fairly presented in state court.
Around the time that the Supreme Court decided
Martinez, the incentives were shifting on the other side
of the equation, too. As the absence of fair presentation
was becoming less of an advantage for state respondents,
an adverse merits adjudication was becoming a windfall.
In Pinholster, this Court held that, for claims denied on
the merits in state court, a prisoner could satisfy the
relitigation bar using only factual material from the
state record. See 563 U.S. at 186–87. And in Harrington
v. Richter, 562 U.S. 86 (2011), the Court held that, for
claims adjudicated on the merits, a state prisoner cannot
overcome the federal relitigation bar without a stringent
showing on the law that every “fairminded jurist[]” would
find the state decision unreasonable. Id. at 786.
In short, the meaning of “adjudicated on the merits”
in § 2254(d) did not change; the implications for state
respondents did. State respondents that had formerly
pushed for strict fair presentation rules that triggered
procedural defaults suddenly preferred claims to be
classified as having been “adjudicated on the merits” in
state court. What followed was a rash of requests from
state respondents for courts to hold that Pinholster in
some sense superseded Martinez and controlled the scope
of the “fair presentation” requirement. See, e.g., Dickens,

14
740 F.3d at 1320 (“The state presents various arguments
to convince us that Dickens is not entitled to remand
under Martinez and that our conclusion would contravene
[Pinholster]”); Brief for Appellee at 16, Nelson v. Davis,
No. 17-70012 (5th Cir. Jul. 22, 2020) (state respondent
arguing that claimant may not, under Martinez, use
“new facts or legal arguments” to “defeat the[] limits”
set forth in Pinholster). The State’s argument in Moore,
which the Fourth Circuit adopted, is part of this effort
to treat Pinholster as a free-floating mandate for courts
to prohibit federal review of new evidence in every case.
But Pinholster interprets statutory language that
does not apply in every case, and does not apply in any
case where a claim is not “adjudicated on the merits.” 3
Specifically, Pinholster is about how to apply § 2254(d)(1),
the exception to a relitigation bar that applies only when
there is a state merits adjudication. The State’s framing—
that courts must choose between the policies embedded
in Martinez and those reflected in Pinholster—elides the
fact that Pinholster interprets a statutory provision not
at issue in cases like Moore’s. Indeed, Pinholster itself
makes this observation explicit, as the Court itself noted
it was not “draw[ing] the line between new claims and
claims adjudicated on the merits.” 563 U.S. at 186 n.10.
“Adjudication on the merits” meant the same thing the
day after Pinholster as it did in 1996.
The question presented in this case is therefore a
straightforward issue of statutory interpretation about
3. As explained above, supra Part I, 28 U.S.C. § 2254(d)
contains broadly applicable language that categorically bars
relitigation of claims “adjudicated on the merits” in state court,
subject to two exceptions within the statute. Pinholster interprets
only one of those subsections, § 2254(d)(1). 563 U.S. at 181.

15
what “adjudicated on the merits” means. Judge-made law
about the consequences of a failure to “fairly present” has
changed, but the statutory meaning of adjudicated on the
merits—keyed to fair presentation—has not. This Court
should therefore confirm that fair presentation still means
what it meant when Congress enacted § 2254(d). The
meaning of a statute does not change because a Supreme
Court decision about a separate doctrine opens the door
to habeas relief in a limited number of cases.
III. T H E F O U R T H C I R C U I T ’ S R U L E I S
IRRECONCILABLE WITH THIS COURT’S
PRECEDENT AND UNDERLYING COMITY
PRINCIPLES
The rule from Vasquez and Picard is the best
interpretation of “adjudicated on the merits” because
it was in place when Congress passed § 2254(d). The
Fourth Circuit’s heart-of-the-claim test, by contrast,
is inconsistent with the statute’s settled meaning. In
passing AEDPA, Congress used a term familiar to prior
habeas law—“adjudicated on the merits.” And “where [C]
ongress borrows terms of art in which are accumulated
the legal tradition and meaning of centuries of practice,
it presumably knows and adopts the cluster of ideas that
were attached to each borrowed word.” Morissette v.
United States, 342 U.S. 246, 263 (1952); see also Universal
Health Servs., Inc. v. United States, 136 S. Ct. 1989, 1999
(2016) (“[I]t is a settled principle of interpretation that,
absent other indication, Congress intends to incorporate
the well-settled meaning of the common-law terms it
uses.”). This rule of statutory interpretation applies with
special force when AEDPA incorporates terms from
antecedent decisional law. See Panetti v. Quarterman,
551 U.S. 930, 943–44 (2007) (requiring courts interpreting

16
AEDPA to look to prior “case law” when statutory term
is “not self-defining”).
When Congress passed AEDPA, it well-understood
that a claim could not be “adjudicated on the merits”
unless it was fairly presented to state courts. In landmark
cases like Wainwright v. Sykes, this Court explained
that a procedurally defaulted claim—a claim not fairly
presented to the state court and for which state remedies
are unavailable—is one that was not “resolved on the
merits in the state proceeding due to respondent’s failure
to raise them there as required by state procedure.” 433
U.S. 72, 87 (1977) (emphasis added). And in Vasquez, this
Court indicated that if evidence fundamentally alters
a claim such that it is new, it must be sent to the state
court for adjudication on the merits. 474 U.S. at 622.
Post-AEDPA cases confirm that the statute preserved
the longstanding alignment between fair presentation
and merits adjudication. See, e.g., Johnson v. Williams,
568 U.S. 289, 302 (2013) (“A judgment is normally said to
have been rendered ‘on the merits’ only if it was ‘delivered
after the court … heard and evaluated the evidence
and the parties’ substantive arguments.” (emphasis in
original)); see also Richter, 562 U.S. at 99 (conditioning the
presumption “that the state court adjudicated the claim
on the merits” on the claim having been “presented” to
the state court). Indeed, in this very case, Fourth Circuit
acknowledged that a claim not fairly presented to a state
court cannot be adjudicated there: “We generally may
entertain a prisoner’s habeas petition raising federal
claims only if he has exhausted the remedies available in
the courts of the state [i.e., fairly presented] .… And where
the state court has denied those claims on the merits, we
must review that decision with great deference.” 952 F.3d
at 181.

17
The meaning of fair presentation embedded in
§ 2254(d)’s merits adjudication requirement was likewise
well established in 1996. The “fair presentation”
requirement is over a century old and has long required
the presentation of both the facts and the legal principles
supporting the claim in order to give “full operation”
to comity, which “is a principle of right and of law, and
therefore of necessity.” Ex parte Royall, 117 U.S. 241,
252 (1886); see also Picard, 404 U.S. at 277 (requiring
presentation of facts and legal principles).
The rule that fair presentation required evidentiary
substance is rooted in federalism, and the principle
that state courts should have the first opportunity to
enforce federal rights. It is “an accommodation of our
federal system designed to give the State an initial
‘opportunity to pass upon and correct’ alleged violations
of its prisoners’ federal rights.” Wilwording v. Swenson,
404 U.S. 249, 250 (1971) (quoting Fay v. Noia, 372 U.S.
391, 438 (1963)). A state court did not have a “‘fair
opportunity’ to apply controlling legal principles to the
facts bearing upon [a prisoner’s] constitutional claim”
if the facts were not presented. Harless, 459 U.S. at 6.
The emphasis on providing state courts with the fair
opportunity to adjudicate law and fact animates Vasquez,
which emphasized that a federal court claim is not fairly
presented to a state court when new, material evidence
“fundamentally alters” it. 474 U.S. at 260.
When it passed AEDPA, Congress was well aware of
the longstanding rule. At that time, a federal court claim
supported with evidence that was new and material was
a claim that was new, not fairly presented to the state
court and not “adjudicated on the merits” there. Nothing

18
in the text or legislative history of the statute suggests
that Congress altered that well-established meaning
when it used the words “adjudicated on the merits” in
§ 2254(d). But the Fourth Circuit’s heart-of-the-claim
standard effectively usurps Congress by cutting loose the
emphasis on factual substance that had been a touchstone
of fair presentation doctrine. This Court should grant
certiorari to resolve the deepening circuit split, clarify
the meaning of “adjudicated on the merits,” and reject
the Fourth Circuit’s test.
CONCLUSION
For the foregoing reasons, Richard Moore’s petition
for certiorari should be granted.
Dated: New York, NY
October 2, 2020
Respectfully submitted,
Caitlin J. Halligan
Counsel of Record
Ryan W. A llison
Jordan L. Weatherwax
Selendy & Gay PLLC
1290 Avenue of the Americas
New York, New York 10104
(212) 390-9000
challigan@selendygay.com
Counsel for Amici Curiae

APPENDIX

1a
Appendix
APPENDIX — LIST
OF AMICI CURIAE
Michael C. Dorf
Robert S. Stevens Professor of Law
Cornell Law School*
Ithaca, New York
Eric M. Freedman
Siggi B. Wilzig Distinguished Professor of Constitutional
Rights
Hofstra University School of Law*
Hempstead, New York
Brandon L. Garrett
L. Neil Williams, Jr. Professor of Law
Duke University School of Law*
Durham, North Carolina
Randy A. Hertz
Vice Dean and Professor of Clinical Law
New York University Law School*
New York, New York
Lee Kovarsky
Bryant Smith Chair in Law
University of Texas School of Law*
Austin, Texas
James S. Liebman
Simon H. Rifkind Professor of Law
Columbia Law School*
New York, New York

2a
Appendix
Leah M. Litman
Assistant Professor of Law
University of Michigan Law School*
Ann Arbor, Michigan
Justin F. Marceau
Professor of Law
University of Denver, Sturm College of Law*
Denver, Colorado
Eve Brensike Primus
Yale Kamisar Collegiate Professor of Law
University of Michigan Law School*
Ann Arbor, Michigan
Jordan M. Steiker
Judge Robert M. Parker Endowed Chair in Law
University of Texas School of Law*
Austin, Texas
Stephen I. Vladeck
A. Dalton Cross Professor in Law
University of Texas School of Law*
Austin, Texas
Samuel Wiseman
Professor of Law
Penn State Law*
University Park, Pennsylvania

3a
Appendix
Larry Yackle
Professor of Law Emeritus
Boston University School of Law
Boston, Massachusetts
*Affiliations listed for identification purposes only.

